<html>
<title> - THE FEDERAL RADIONAVIGATION PLAN; H.R. 1684, THE FOREIGN SPILL PROTECTION ACT OF 2015; AND H.R. ll, THE NATIONAL
ICEBREAKER FUND ACT OF 2015 </title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.      
                 THE FEDERAL RADIONAVIGATION PLAN; H.R. 
                  1684, THE FOREIGN SPILL PROTECTION ACT 
                   OF 2015; AND H.R. __, THE NATIONAL  
                    ICEBREAKER FUND ACT OF 2015

=======================================================================

                                (114-26)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                             ______________
                             
                             
                           U.S. GOVERNMENT PUBLISHING OFFICE
95-651 PDF                     WASHINGTON : 2015                           
             
_______________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  
        
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter, including H.R. 1684, the ``Foreign 
  Spill Protection Act of 2015'' and H.R. __, the ``National 
  Icebreaker Fund Act of 2015''..................................    iv

                               WITNESSES

Gary C. Rasicot, Director of Marine Transportation Systems, U.S. 
  Coast Guard, and Mary E. Landry, Director of Incident 
  Management and Preparedness Policy, U.S. Coast Guard:

    Testimony....................................................     5
    Joint prepared statement.....................................    35
    Responses to questions for the record from Hon. Don Young of 
      Alaska.....................................................    41
Karen L. Van Dyke, Director of Positioning, Navigation, and 
  Timing, and Spectrum Management, Office of the Assistant 
  Secretary for Research and Technology, U.S. Department of 
  Transportation:

    Testimony....................................................     5
    Prepared statement...........................................    44
Martin Faga, Former Chief Executive Officer, MITRE Corporation, 
  and Former Assistant Secretary of the Air Force, accompanied by 
  Charles A. Schue, President and Chief Executive Officer, 
  UrsaNav:

    Testimony....................................................     5
    Prepared statement...........................................    49
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    59

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. John Garamendi of California................................    30
Hon. Peter A. DeFazio of Oregon..................................    31
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    THE FEDERAL RADIONAVIGATION PLAN; H.R. 1684, THE FOREIGN SPILL 
PROTECTION ACT OF 2015; AND H.R. ___, THE NATIONAL ICEBREAKER FUND ACT 
                                OF 2015

                              ----------                              


                         TUESDAY, JULY 28, 2015

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
                               Committee on Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The committee will come to order. The 
subcommittee is meeting today to review three topics, the 
Federal Radionavigation Plan, the Foreign Spill Protection Act 
that Mr. Curbelo is bringing, and the National Icebreaker Fund 
Act of 2015.
    The first item for consideration is the Federal 
Radionavigation Plan, or FRP, which is the Federal Government's 
primary policy and planning document for positioning, 
navigation, and timing, commonly referred to as PNT. The plan 
describes the Government's role, responsibilities, and policies 
regarding PNT systems and data and is updated every 2 years 
through the joint efforts of the Departments of Defense, 
Transportation, and Homeland Security.
    The Global Positioning System, or GPS, is the most 
recognized PNT system and is vital to U.S. national security, 
the safe operation and reliability of critical infrastructure, 
and economic prosperity. GPS signals have been incorporated 
into virtually every technology, from cell phones to financial 
systems, the power grid, and information systems. Marine 
transportation systems are also highly dependent on GPS.
    The vast majority of the millions of recreational vessels, 
fishing vessels, commercial vessels, and foreign vessels that 
call on U.S. ports rely on at least one, if not many, GPS-based 
systems for safe navigation, collision avoidance, and emergency 
procedures. With a growing dependency on GPS in this Nation, it 
is concerning that the Department of Homeland Security 
officials have called GPS ``a single point of failure for 
critical infrastructure.''
    In 2004, the Department of Transportation began working 
with DHS [Department of Homeland Security] to acquire a backup 
system for GPS under a directive from President George W. Bush. 
President Obama continued the directive, and in the 2008 
edition of the FRP, the signatory agencies outlined a plan to 
develop a GPS backup system. However, the next two editions of 
the FRP failed to provide a backup system.
    The ranking member and I sent a letter last year to the 
Secretaries of Transportation, Homeland Security, and Defense 
asking that the 2014 version of the FRP outline the 
Government's plan for addressing the problem. The 2014 edition 
of the plan was released in May and does not identify what 
action will be taken or the lead agency. It has been 11 years 
since acknowledgment of this problem, and we need to move 
beyond discussing GPS vulnerability and start addressing the 
issue of how to fix it.
    The second item for consideration is Mr. Curbelo's bill, 
H.R. 1684, the Foreign Spill Protection Act of 2015. The bill 
would include foreign offshore units where there is a discharge 
or the substantial threat of oil discharge reaching U.S. waters 
or shores within the liability section of the Oil Pollution 
Act. The foreign offshore units would be a responsible party 
liable for removal costs and damages in the same manner as a 
U.S. offshore facility.
    The 2010 BP Deepwater Horizon oil spill in the Gulf of 
Mexico showed that technology can fail and that existing 
response policies can be inadequate. The impacts of that spill 
are still being felt in the region. BP costs for the spill 
damages are currently over $50 billion. The size, scope, and 
cost of that spill raise concerns about foreign deepwater oil 
drilling operations that could impact U.S. waters and 
shorelines.
    The subcommittee held a hearing in January 2012 to review 
``Offshore Drilling in Cuba and the Bahamas: The U.S. Coast 
Guard's Oil Spill Readiness and Response Planning.'' At the 
hearing, the Coast Guard discussed how through international 
conventions and frameworks the Coast Guard is working with 
Caribbean nations, including Cuba and the Bahamas, to 
coordinate to combat spill events.
    The Coast Guard also discussed its National Contingency 
Plan and the work of the National Response Teams and their 
planning and preparedness efforts with State and local 
communities. I am interested to hear today about what 
agreements the Coast Guard has with its international partners, 
what prevention actions are being adopted to prevent more 
spills in the future, and in the event that a spill occurs, 
what type of international response and coordination we can 
expect.
    The ranking member is here. That is always special for us.
    H.R. 1684 gets at a specific issue, that there be a 
responsible party to pay for cleanup and damages for a foreign 
sourced oil spill that impacts U.S. waters and adjacent 
shorelines. While the Oil Spill Liability Trust Fund could be 
used when there is no responsible party, it limits all costs to 
$1 billion. Any spill even near the scope of the Deepwater 
Horizon spill would quickly overwhelm the fund.
    The U.S. taxpayer should not be on the hook for any costs 
not covered by the fund for a spill that originates outside of 
the U.S., especially if the foreign offshore unit has a known 
owner or operator. I understand the Coast Guard may have 
concerns with the legislation and look forward to talking and 
getting their take on it and talking about the bill today.
    The last item for consideration today is a draft bill, the 
National Icebreaker Fund Act. The bill would create a funding 
source that could be used for the alteration or renovation of 
icebreakers and the lease or charter of private icebreakers.
    The Polar Sea, currently inactive, and the Polar Star are 
both beyond their original 30-year service life. The Polar Star 
was recently renovated and is working within an estimated 7- to 
10-year service life extension. The Healy will reach its 
estimated end-of-service life in 2030. This conservatively puts 
us 5 to 15 years away from end-of-service life for the two 
active icebreakers and for the Polar Sea, if it gets a 7- to 
10-year extension in the coming years.
    The operational status--more accurately, the nonoperational 
status--of the icebreakers is creating mission gaps. The older 
the icebreakers get, the longer it takes the administration to 
come up with a replacement plan, the closer we are to end-of-
service life for the icebreakers, or, worst-case scenario, 
where we find ourselves without icebreakers. Years are passing 
with no progress on the acquisition or charter/leasing of an 
icebreaker or on decisions to reactivate the Polar Sea.
    Congress has restricted the use of Coast Guard acquisition 
funds to the construction of an icebreaker that can carry out 
Coast Guard missions. U.S. icebreakers have supported numerous 
executive agency missions, and the Coast Guard should not bear 
the burden of the full cost of building an icebreaker because 
they simply cannot pay for an icebreaker.
    The draft bill, the National Icebreaker Fund Act, would 
provide funding for long- or short-term solutions for 
renovating the aging icebreakers or chartering or leasing an 
icebreaker to alleviate, to the extent possible, mission gaps. 
In addition, through further discussion and bipartisan 
cooperation, the bill has been modified to include construction 
as a use of the fund. The bill should be viewed as part of a 
broader solution for the Coast Guard and its icebreakers.
    I look forward to talking about that today, the icebreakers 
in general. No one is doing this yet, meaning this is the only 
and the first shot we have done on actually trying to get 
something built or leased or anything. And that is what Mr. 
Garamendi and I have been working on. So hopefully it will at 
least go somewhere or gets the ball rolling in the right 
direction.
    And with that, I yield to Mr. Garamendi. This is what 
happens when you have three different topics for a hearing. The 
intro is too long.
    [Laughter.]
    Mr. Hunter. I yield to the ranking member.
    Mr. Garamendi. Well, I can shorten mine and really come 
down to two different types of time. One is real time, which I 
suppose the GPS and the e-loran [enhanced long-range 
navigation] system would accomplish.
    The other is Federal time. Federal time seems to be the 
forever time, and we have at least two great examples of 
Federal time here, one the e-loran system, which was identified 
as a backup to the GPS system, gee whiz, almost 20 years ago--
well, 15 years ago, anyway. And here we are, Federal time, 
making time, and not yet done. And the other is icebreaker, 
which is also operating on Federal time, which seems to be 
forever. We ought to get it done.
    I am going to submit my testimony for the record. But if we 
continue working on Federal time, we are going to have a very 
serious problem. And so my intention, together with you, Mr. 
Chairman, is to operate on real time and get something done. It 
has been way past time.
    We absolutely have to have a backup system. The GPS is 
vulnerable. I think we all know that for a variety of reasons, 
all of which are going to be discussed today. And if we do not 
get off the dime and get down to real time and get this thing 
done, there is going to be a world of hurt for this Nation and 
others.
    The icebreaker is similar. We could ponder and ponder, and 
eventually somebody is going to get stuck in the ice, and then 
somebody is going to wonder why was it not done. And the reason 
it was not done is that your United States Congress, House and 
Senate, together with the administration, was operating on 
Federal time--in other words, forever. So let's get it done.
    Without objection, I would like to have my written 
statement in the record.
    Mr. Hunter. So ordered.
    OK. Let's introduce our witnesses today. First, we have--I 
am sorry. Mr. DeFazio? To the full committee ranking member, I 
yield.
    Mr. DeFazio. Thanks, Mr. Chairman. Mr. Chairman, thanks 
very much for holding this hearing. I think the introduction of 
the bill on the replacement of the icebreaker is absolutely 
critical. We need to move ahead. I have made known to the 
chairman and others my potential preferred alternative, which 
is after they haul the Polar Sea and Polar Star and take a look 
at the hull integrity, that the gutting stuff option holds a 
lot of attractiveness. And we will cede the cost-benefit 
analysis.
    And I have got to give Congressman Garamendi a lot of 
credit. He came to me I think it was a year ago or more on the 
radionavigation idea, the single point of failure, GPS. 
Incredible vulnerability for the United States of America and 
all of our national security and commerce in this country. So 
we need to move forward--no more delay--with a plan to have a 
backup system.
    Mr. Garamendi. Just $40 million and we can do it.
    Mr. DeFazio. $40 million? Yes. We can find that under a 
couch cushion. I mean, if Paul Ryan can find $8 billion under a 
couch cushion, there has got to be $40 million somewhere still 
under there.
    Thank you. Thank you, Mr. Chairman.
    Mr. Hunter. I thank the ranking member. No, it is funny. My 
uncle, who is a scientist, said, ``Somebody called me and said, 
hey, do not get rid of GPS. It is really important.'' I said, 
``We are not getting rid of GPS. We just want to make sure it 
is backed up so if it goes away''----
    Mr. Garamendi. Get the right message out.
    Mr. Hunter. Right. Our witnesses today, we have Mr. Gary 
Rasicot, Director of Marine Transportation Systems with the 
Coast Guard. We have Ms. Mary Landry, Director of Incident 
Management and Preparedness Policy with the Coast Guard; Ms. 
Karen Van Dyke, Director of Positioning, Navigation, and 
Timing, and Spectrum Management, Office of the Assistant 
Secretary for Research and Technology, U.S. Department of 
Transportation; and our last witness and the gentleman who has 
accompanying him, Mr. Martin Faga, and he is accompanied by Mr. 
Charles Schue--which is Charles? There we go--Mr. Charles 
Schue, president and CEO of UrsaNav. He will be available to 
answer any Member questions we have.
    So I would like to thank all the witnesses for being here 
today, and first yield to Mr. Gary Rasicot, Director of Marine 
Transportation Systems for the Coast Guard.

TESTIMONY OF GARY C. RASICOT, DIRECTOR OF MARINE TRANSPORTATION 
SYSTEMS, U.S. COAST GUARD; MARY E. LANDRY, DIRECTOR OF INCIDENT 
MANAGEMENT AND PREPAREDNESS POLICY, U.S. COAST GUARD; KAREN L. 
VAN DYKE, DIRECTOR OF POSITIONING, NAVIGATION, AND TIMING, AND 
  SPECTRUM MANAGEMENT, OFFICE OF THE ASSISTANT SECRETARY FOR 
RESEARCH AND TECHNOLOGY, U.S. DEPARTMENT OF TRANSPORTATION; AND 
MARTIN FAGA, FORMER CHIEF EXECUTIVE OFFICER, MITRE CORPORATION, 
AND FORMER ASSISTANT SECRETARY OF THE AIR FORCE, ACCOMPANIED BY 
   CHARLES A. SCHUE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                            URSANAV

    Mr. Rasicot. Chairman Hunter, Ranking Member Garamendi, 
members of the subcommittee, thank you for the opportunity to 
testify today on the Nation's icebreaking needs and the Federal 
Radionavigation Plan. My complete statement has been provided 
to the subcommittee, and I ask that it be entered into the 
record and that I be allowed to summarize my remarks.
    Mr. Hunter. Without objection.
    Mr. Rasicot. Thank you, sir. Mr. Chairman, as you just 
discussed, the ability to operate safely and reliably in the 
polar regions is critical to the Nation's security and economic 
interests. We greatly appreciate your generous time and 
interest you have invested in our existing icebreakers. Our 
only heavy icebreaker, Polar Star, has had a very busy year. 
The crew has been away from home for nearly 250 days.
    As the ranking member saw firsthand, Polar Star is 40 years 
old and being maintained only by the dedicated efforts of her 
crew and shore support team. Having one heavy icebreaker for 
polar deployments means that extensive maintenance activities 
must occur on Polar Star upon her return to the United States 
if the cutter is to be ready for the following year's 
deployment on Operation Deep Freeze and the breakout of McMurdo 
Station near the South Pole.
    Regarding Polar Sea, we recently signed a memorandum of 
agreement and provided funds to the Maritime Administration to 
initiate a preservation drydock on Polar Sea before the end of 
this fiscal year. This work will slow the deterioration of the 
hull and machinery and preserve the vessel for layup work, 
which is necessary regardless of how we do the disposition.
    In conjunction with this drydock, we have also taken 
initial steps in preparation for a full material condition 
assessment, as requested in the fiscal year 2016 President's 
budget. Most recently, a preliminary evaluation of the project 
was completed last month in Seattle by the Naval Sea Systems 
Command. This critical work must be done prior to making a 
final determination on whether to reactivate or decommission 
the ship.
    Regardless of the final determination on Polar Sea's 
future, reactivation is only viable as a bridging strategy and 
it does not mitigate the need for recapitalization of the 
Nation's polar fleet.
    Regarding the Coast Guard's ongoing acquisition project, in 
January we completed the preliminary operations requirements 
document for the new polar icebreaker. We anticipate finalizing 
these operational requirements among all of our interagency 
stakeholders by the end of calendar year 2015. We are also in 
the process of finalizing an alternatives analysis, which we 
are on schedule to deliver to Congress this year.
    While the Coast Guard is the sole Federal agency operating 
the Nation's polar icebreaking program, the Federal 
Radionavigation Plan is jointly executed and reflects the 
official positioning, navigation, and timing policy for the 
Federal Government, and is prepared by the Departments of 
Defense, Homeland Security, and Transportation. In support of 
DHS, the Coast Guard defines the need for and provides aids to 
navigation and facilities required for the safe and efficient 
maritime navigation.
    As previously noted, the majority of today's maritime 
navigation is dependent on GPS positioning, navigation, and 
timing signal for their primary navigation. In addition, the 
Coast Guard provides a robust system of physical aids to 
navigation which mariners use in conjunction with their 
electronics to safely navigate coastal and inland waters.
    The Coast Guard continues to leverage technology to enhance 
mariners' situational awareness. We have aggressively worked 
with our maritime stakeholders to establish electronic aids to 
navigation around the country. To date, we have almost 200 in 
place that enhance the current U.S. ATON [Aids to Navigation] 
system. We are also working steadily towards transmitting 
maritime safety information to the mariner for real-time 
display on his electronic charting system.
    In closing, the Coast Guard is striving to meet the 
Nation's polar icebreaking and maritime navigation needs, and 
we are committed to working with the committee and the 
interagency on these fronts.
    Thank you for the opportunity to testify today and for all 
you do for the men and women of the United States Coast Guard. 
I look forward to your questions.
    Mr. Hunter. Thank you very much.
    Our second witness today is Ms. Mary Landry, Director of 
Incident Management and Preparedness Policy with the Coast 
Guard.
    Ms. Landry. Chairman Hunter, Ranking Member Garamendi, 
members of the subcommittee, thank you for the opportunity to 
testify today on the Coast Guard's oil spill response 
capability, and thank you for your strong support of the Coast 
Guard.
    I have also submitted a complete statement to the 
subcommittee. I ask that it be entered into the record and I be 
allowed to summarize my remarks.
    Mr. Hunter. Without objection.
    Ms. Landry. Thank you. Mr. Chairman, the Coast Guard is 
committed to proactive oil spill prevention, preparedness, and 
response as the predesignated Federal On-Scene Coordinator for 
the Coastal Zone and the authority that originates from the 
Clean Water Act, as amended by the Oil Pollution Act of 1990, 
and also by regulation in the National Oil and Hazardous 
Substance Pollution Contingency Plan.
    Our preparedness and response efforts involve coordination 
with numerous State and Federal agencies as well as 
international partners, private sector, nongovernmental 
organizations, science institutions, and academia. This 
collaboration ensures Government and industry have the 
necessary oil spill response equipment, capability, and 
contingency plans to address worst-case scenario discharges.
    In anticipation of increased maritime activities both 
domestically and internationally, we have focused recent 
efforts on the Caribbean and Arctic regions to mitigate the 
potential risks associated with oil exploration and production. 
Specifically, the May 2013 Agreement on Cooperation on Marine 
Oil Polution, Preparedness and Response in the Arctic, as 
signed by the members of the Arctic Council, focuses on Arctic-
wide cooperation, coordination, and mutual assistance among 
parties on oil pollution, preparedness, and response.
    In March 2014, the development of the Wider Caribbean 
Region Multilateral Technical Operating Procedures for Offshore 
Oil Pollution Response, called MTOP, for offshore oil pollution 
response outlined a responder-to-responder network and 
framework between the U.S., Cuba, the Bahamas, Jamaica, and 
Mexico. This framework is for participating nations to work 
effectively in response to large spills threatening more than 
one participating nation's waters.
    Additionally, arrangements are in place with the U.S. 
Department of the Treasury, Office of Foreign Asset Control, 
and the U.S. Department of Commerce, Bureau of Industry and 
Security, to enable U.S. commercial oil spill removal 
organizations, or OSROs, to conduct oil spill response in 
foreign waters. This authorization is granted in the form of 
licenses, both general and specific, and are primarily utilized 
to enable responses to assist nations on which the U.S. has 
imposed economic and export sanctions.
    I also want to emphasize that the U.S. Government can 
directly support foreign governments by providing response 
experts or technical advisors to spill sites. A recent example 
of this: In January 2015, the U.S. Coast Guard and NOAA, the 
National Oceanographic and Atmospheric Administration, provided 
several oil spill cleanup professionals to the USAID mission in 
Bangladesh in response to an oil spill covering an estimated 
3900 square miles.
    Here at home the national response system has proven its 
resilience through its 45 years of service. In 2010, the 
Deepwater Horizon incident pushed the limits of the system as 
we fought to save an ecosystem and a way of life along the gulf 
coast.
    As a result of the lessons learned from the Deepwater 
Horizon, the Coast Guard has taken a number of actions to 
enhance our spill preparedness and response posture, including 
working more closely with local communities through our area 
committees to better integrate their capabilities into our 
response.
    The Coast Guard also established a full-time deployable 
national Incident Management Assistance Team as well as 
civilian Incident Management Preparedness Advisors in each of 
the Coast Guard districts. These advisors serve as Regional 
Response Team cochairs in their respective regions. And in 
addition, the Coast Guard has instituted a Federal On-Scene 
Coordinators course that provides junior incident commanders 
with the applied knowledge for directing smaller oil spills 
while enhancing major oil spill response readiness.
    The Coast Guard also conducts annual Spills of National 
Significance [SONS] exercises, which highlight responses 
requiring high-level coordination and leadership across DHS, 
the Coast Guard, and the 15 National Response Team [NRT) 
agencies. Lessons learned from these seminars, including the 
recent last three sessions of SONS which focused on the Arctic, 
serve to establish critical guidance and policy for future 
spills. In 2016, the Coast Guard will support the EPA, our 
cochair to the NRT, as we focus the SONS exercise on an inland 
crude-by-rail incident to address this emerging threat.
    The oil spill preparedness and response mission area 
remains extremely diverse, and it includes a unique blend of 
authorities and capabilities that span across multiple Coast 
Guard mission sets. We have made substantial improvements in 
environmental stewardship through our interagency international 
partnerships, work to close gaps in personnel competencies, and 
increased sufficiencies across the entire mission area.
    As we move into the Coast Guard's 225th year of operation, 
we will continue to explore every opportunity to improve on 
lessons learned from past incidents and further solidify and 
enhance our spill prevention and response activities.
    Thank you for the opportunity to testify before you today 
and for all you do for the men and women of the U.S. Coast 
Guard. I look forward to your questions. Thank you.
    Mr. Hunter. Thank you, Ms. Landry.
    Our next witness today is Ms. Karen Van Dyke, Director of 
Positioning, Navigation, and Timing, and Spectrum Management, 
Office of the Assistant Secretary for Research and Technology, 
U.S. Department of Transportation.
    Ms. Van Dyke. Chairman Hunter, Ranking Member Garamendi, 
and members of the subcommittee, thank you for the opportunity 
to appear before you today to discuss the Federal 
Radionavigation Plan and the importance of positioning, 
navigation, and timing systems to America's national, homeland, 
and economic security and efficiency.
    Positioning, navigation, and timing, PNT, is critical for 
transportation safety, efficiency, and capacity-increasing 
programs, including major initiatives such as the Federal 
Aviation Administration's air traffic control mission, 
Intelligent Transportation Systems, and Positive Train Control.
    The Global Positioning System in particular is used for 
every mode of transportation, and there are numerous safety and 
efficiency applications of this enabling technology to provide 
tremendous benefit to America's transportation infrastructure. 
GPS is a key technology for vehicle collision warning and crash 
avoidance systems while enabling shorter routes, increased time 
and fuel savings, and reduced traffic delays across all modes 
of transportation.
    As designated by the 2004 National Security Presidential 
Directive, NSPD-39, the Department of Transportation has the 
lead responsibility for the development of GPS requirements for 
civil applications for all United States Government civil 
departments and agencies. In addition to the transportation 
applications, GPS is essential for the safe and efficient 
operations of first responders, search and rescue, resource 
management, weather forecasting, earthquake monitoring, 
surveying and mapping, precision agriculture, 
telecommunications, and financial transactions.
    The Deputy Secretary of Defense and Deputy Secretary of 
Transportation cochair the National Executive Committee for 
Space-Based PNT, known as the PNT EXCOM, which includes 
representatives from seven cabinet agencies, the National 
Aeronautics and Space Administration, and the Joint Chiefs of 
Staff.
    Since 1980, the Federal Radionavigation Plan, the FRP, has 
been the official source of positioning, navigation, and timing 
strategy and planning for the Federal Government. It is jointly 
developed biennially by the Departments of Transportation, 
Defense, and Homeland Security.
    Section 5.1.2 of the FRP recognizes the need to mitigate 
disruptions to GPS. Like all radio-based services, GPS is 
subject to interference from both natural and human-made 
sources. A loss of GPS service due to either intentional or 
unintentional interference, in the absence of any other means 
of navigation, would have very negative effects on operations.
    As stated in the FRP, the U.S. Government encourages all 
GPS users to be aware of the impacts of GPS interference and 
incorporate or integrate alternative PNT sources where needed 
to ensure continued operations. The Federal Aviation 
Administration, for instance, currently maintains a ground-
based navigation infrastructure for aviation.
    GPS enables the safe and efficient movement of waterborne 
commerce along the U.S. marine transportation system, and is 
especially critical as ports become increasingly congested with 
larger container ships, tankers, and passenger vessels.
    In the event of a GPS disruption, methods of conventional 
navigation may help maintain the flow of commerce along 
waterways and in ports. However, ports may have to reduce the 
number of allowed vessel movements, and port congestion may 
become even more problematic and costly, in addition to 
increasing the risk of maritime accidents.
    Service transportation agencies are working with industry 
to ensure that the safety-critical systems that use GPS and its 
augmentations consider the loss of these PNT services and are 
able to mitigate the effects. The Federal Railroad 
Administration encourages an integrated approach to technology 
by railroads that incorporate systems that are interoperable, 
synergistic, and redundant to ensure the safe and efficient 
operation of the railroad system during the loss or disruption 
of GPS.
    Signal availability from GPS may not be adequate for 
surface users experiencing canopy or urban canyon obstructions. 
The integration of complementary and/or alternate systems that 
support continued operations in the event of degradation to the 
GPS signal will be employed in a multisensor configuration.
    The PNT EXCOM is currently investigating use of an e-loran 
system to serve as the backup PNT capability to GPS. In March 
of 2015, the Department of Transportation invited comment from 
the public and industry regarding consideration of an e-loran 
system as a backup PNT capability to GPS.
    There are approximately 200 responses to the Federal 
Register notice. Most responses were not application-specific, 
other than for maritime use. Discussion of a PNT backup 
capability is planned for the next meeting of the National 
Space-Based PNT Executive Committee in September.
    Thank you, and I look forward to answering your questions.
    Mr. Hunter. Thank you very much.
    Mr. Faga is now recognized.
    Mr. Faga. Mr. Chairman, thank you very much, and thanks for 
the opportunity to speak with you today about the need for a 
complement capability for our Global Positioning System.
    I have been involved with GPS for many years in the Air 
Force, at MITRE, and as a congressional staff member. I serve 
on the National Space-Based Positioning, Navigation, and Timing 
Advisory Board, but I am not here as a representative. I am 
here on my own behalf. I am accompanied by Charles Schue, who 
is a former Coast Guard officer and is CEO of UrsaNav, which is 
a manufacturer of navigation and other equipment.
    Since becoming an operational system in 1995, we have seen 
GPS grow to be a major international public utility, and we 
have all experienced GPS navigation personally. What is less 
well-known is that GPS has become a vital source of precision 
timing information for homework systems of all kinds--
telephone, financial, other networks, including the Internet 
itself, require timing information, often accurate to one one-
millionth of a second.
    GPS is the most practical and inexpensive way for network 
operators to get such accurate timing, and so of course they 
have used it and become dependent on it over these 20 years. 
This makes sense, but the risk is that disruption of GPS would 
cause disruption to many elements of our modern society.
    DHS reports that 13 of the 16 critical infrastructures of 
the United States are critically dependent on GPS, in many 
cases because of timing. Disruption to GPS could occur from a 
wide range of sources, including solar storms, errors by humans 
or software that operates the system, physical attack, or 
jamming.
    It is the very success of GPS which creates a call for a 
complementary system to reinforce it. Senior officials at the 
Department of Homeland Security have recently called our 
reliance on GPS and its vulnerabilities ``a single point of 
failure for critical infrastructure.''
    As you noted, Mr. Chairman, the importance of our 
dependence on GPS has been recognized by three Presidents since 
1998. In 2008, all of the concerned departments and agencies 
across the Federal Government identified a terrestrial system 
called enhanced loran as one that could be such a complementary 
system. The Government has never acted to build the system.
    Loran stands for long-range navigation, and it has existed 
in various forms since World War II, and operated in the United 
States until 2010. It uses very powerful radio transmitters at 
very low frequency to transmit signals that receivers use to 
triangulate position and to get time. Like GPS, it provides 
timing accurate enough to operate networks. It is difficult to 
disrupt, and it has different failure modes than GPS, so the 
two would be a great pairing.
    The modern version, enhanced loran, is commercially 
available. A complete system of 19 stations in the United 
States would cost on the order of $300 million and $20 million 
a year, really big money. But we spend $1 billion a year on 
GPS.
    Perhaps more important and more practical is that a basic 
e-loran system of four stations, costing about $40 million, 
including the use of existing towers and equipment, would 
provide nationwide timing for all fixed users, which is most 
users that require precision timing.
    The system could be a source of revenue. If a contract was 
properly structured, an e-loran system could generate enough 
income to pay for itself over 10 years. While not exact 
parallels, the FAA's Automatic Dependent Surveillance-Broadcast 
system, where the Government and industry cooperate to build a 
system, generates revenue, and both FAA and the system provider 
share the income generated. In my written statement, I have 
offered some further thoughts on this.
    So first the administration must do two very important 
things. It must commit to addressing this important problem, 
and it must identify and empower a single Federal agent who can 
work with Government agencies and industry to implement a 
solution.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Hunter. Thank you, Mr. Faga. Thank all of you for your 
testimony.
    I am going to start--I am going to skip myself and 
recognize Mr. Curbelo, if he is ready. The gentleman from 
Florida is recognized.
    Mr. Curbelo. Thank you, Mr. Chairman. And I want to start 
by thanking you for affording the committee the opportunity to 
consider my legislation, the Foreign Spill Protection Act of 
2015, or H.R. 1684.
    Prior to the BP Deepwater Horizon disaster in 2010, which 
by the way I was a congressional staffer and I saw firsthand 
the wonderful work done by the Coast Guard, the costliest oil 
spill in the history of the gulf was the Ixtoc I spill off the 
coast of Mexico in 1979. It took 9 months to cap. Oil polluted 
the shores of southern Texas and the Mexican-owned oil company 
agreed to pay $100 million to avoid litigation in U.S. courts.
    Following the Exxon Valdez disaster in 1989, Congress 
passed the Oil Pollution Act of 1990, or OPA. The basic premise 
of OPA is that the party responsible for the spill is 
responsible for all the costs of cleaning up the mess. Under 
OPA, and I will paraphrase, an offshore facility is defined as 
any facility located in the navigable waters of the United 
States, and any facility of any kind which is subject to the 
jurisdiction of the United States and is located in any other 
waters, other than a vessel or public vessel.
    However, because offshore facilities are limited only to 
the navigable waters of the United States under OPA, foreign 
rigs cannot be designated as responsible parties. Therefore, if 
there were to be a repeat of Ixtoc I, the most a responsible 
party would have to pay to clean up American waters and shores 
is $150 million.
    This issue is of particular concern to Gulf States. Mexico, 
Cuba, and the Bahamas are actively looking at expanding their 
offshore drilling operations. Of particular concern is Mexico, 
which is looking into ultra-deep wells exceeding 6,000 feet in 
depth. In 2012, Mexico's top oil regulator said they were not 
prepared to handle a serious accident or major oil spill.
    But it is not just the Gulf States that could be negatively 
affected by a spill. On the Canadian side of Lake Erie, 
offshore energy exploration is being conducted for natural gas. 
While Canadian law prohibits oil extraction from the Great 
Lakes, the risk of a spill persists while drilling for natural 
gas. Again, under current law, the most the responsible party 
would have to pay for any cleanup is $150 million.
    In response to these concerns, my friend from Florida, 
Representative Patrick Murphy, and I introduced the Foreign 
Spill Protection Act, H.R. 1684. This important legislation 
would ensure that the responsible party, regardless of origin, 
pays for all American cleanup costs by applying OPA. 
Furthermore, the bill would apply Clean Water Act penalties on 
the responsible foreign party.
    I am proud that this legislation has broad bipartisan 
support and has been endorsed by environmental, fishing, and 
other groups that depend on the water for their livelihoods. 
Our coastal communities need peace of mind that if they are 
affected by a foreign spill, resources are available to clean 
up their shores and help them recover. American taxpayers 
should not have to foot the bill to bail out foreign companies.
    Again, Mr. Chairman, thank you for this opportunity, and I 
look forward to further discussing the issue with all of you.
    Mr. Hunter. I thank the gentleman from Florida.
    I would like to recognize the ranking member, Mr. 
Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. I would like to 
focus on the e-loran system and see if we can get this thing 
moving along.
    Mr. Faga and Mr. Schue, a few questions, probably with 
rather straightforward answers, just so we can get this stuff 
on the record. If I understand your testimony correctly, the 
former loran-C infrastructure could be rather easily repurposed 
to support e-loran. Is that correct?
    Mr. Faga. I would probably have to argue with ``easily,'' 
but it could certainly be done. Of course, the existing 
infrastructure, which has not been operated since 2010, is 
decaying. So the Coast Guard would have to look hard at what it 
is going to take to bring it back. But what e-loran does is go 
from loran-C to more modern electronics, fundamentally.
    Mr. Garamendi. OK. The technology, the greatest benefit of 
e-loran, is it would provide a backup timing signal, which is 
then essential for the positioning and navigation. So if there 
are multiple towers, you would have both timing, position, and 
navigation.
    Mr. Faga. It takes more towers to do the navigation job. 
But I think, as Ms. Van Dyke pointed out, there are better 
backups for navigation and position than there are for timing. 
I have been in a number of meetings in the last few months with 
infrastructure providers, some of whom are surprised to learn 
that they have a dependence on GPS timing because they are 
getting it from a supplier who is dependent on it. Therefore, 
they are dependent on it, which is why DHS says 13 of our 16 
critical infrastructures are dependent.
    Mr. Garamendi. So just four towers could give us nationwide 
timing?
    Mr. Faga. Timing for fixed items. Moving objects would not 
be able to educe timing with that few number of stations.
    Mr. Garamendi. And what would be necessary to provide for 
moving?
    Mr. Faga. Nineteen stations would give complete PNT 
coverage of the United States, and so some significant portion 
of that, 10 or 12, would move toward that goal.
    Mr. Garamendi. The number $40 million has been tossed 
around today. That would be for the four stations for timing 
only?
    Mr. Faga. And makes the assumption that some of the towers 
and stations and equipment would be used in the short term.
    Mr. Garamendi. I understand one such station is up and 
operating in Mr. LoBiondo's district.
    Mr. Faga. In Wildwood, New Jersey. Yes, sir.
    Mr. Garamendi. New Jersey. Are there any problems with that 
operation?
    Mr. Faga. Chuck is actually involved with that, so I will 
invite him to respond.
    Mr. Schue. Mr. Garamendi, the station is operating. It 
would be fully autonomous and unmanned in its fully operational 
capability. We have a caretaker that comes in and turns it on 
and turns it off. It is not set up to operate continuously 24/7 
right now because it has been off since 2010, but it is fully 
capable of making that transition with a small investment.
    Mr. Garamendi. I did see a demonstration of that system at 
the Naval Observatory last week, and rather impressive.
    My next question goes to Ms. Van Dyke. Your testimony is 
interesting, but it reminds me of so much testimony I heard: We 
are studying it. Could you be a little more precise in the 
timing of the study and the timing of when you intend to 
actually deal with this since this problem was actually noticed 
in 1998, and in 2008 the executive branch of Government made a 
decision that e-loran was the solution? So where are we now 7 
years later?
    Ms. Van Dyke. Yes. Thank you for your question, and perhaps 
Mr. Rasicot also wants to chime in. We are working with our 
partners in DHS and in DOD as part of a complementary PNT Tiger 
Team. That was associated with the Federal Register notice that 
we issued earlier this year, to have public and industry 
feedback.
    And as I mentioned in my testimony, we do have a Space-
Based PNT Executive Committee coming up in September, which 
will discuss this topic. This will be one of the primary topics 
on the agenda with the Deputy Secretary of Defense and Deputy 
Secretary of Transportation.
    Mr. Garamendi. Do you consider this to be a significant 
national security issue, that we could lose GPS, single point 
of failure?
    Ms. Van Dyke. I do. I was involved back in 2001 with the 
Volpe National Transportation Systems Center study on the 
vulnerability of GPS for transportation, so I have been well 
aware for a long time of the vulnerabilities of GPS and our 
significant dependence not only for transportation but also for 
the other critical infrastructure that has been mentioned. And 
I do think it is a problem that we need to address and resolve.
    Mr. Garamendi. When would it be addressed, if it is 
critical? So you have a study coming up. You have a meeting 
coming up in September to discuss what was discussed 7 years 
ago.
    Ms. Van Dyke. The complementary PNT Tiger Team has really 
been looking at what has changed in the past 7 years, from 
increased dependency on GPS, to other technologies that have 
been developed, as well as increased threats to the GPS system. 
Again, this will be a major subject of discussion at that 
meeting with all of the information that we have collected.
    Mr. Garamendi. You just had a meeting. What was the outcome 
of that meeting? We should meet again? Was that the outcome?
    Ms. Van Dyke. I am not sure which meeting you are referring 
to.
    Mr. Garamendi. Well, I think in your testimony you said you 
had a request for information that came out. Two hundred people 
responded.
    Ms. Van Dyke. Right.
    Mr. Garamendi. And the result was, let's meet?
    Ms. Van Dyke. We have a scheduled executive committee 
meeting in September that will talk about the results from the 
Federal Register notice, as well as the evaluation of 
technologies that have been developed.
    Mr. Garamendi. Mr. Rasicot, your comments on this issue 
that I raised?
    Mr. Rasicot. Sir, we are moving forward. I mean, as Karen 
outlined----
    Mr. Garamendi. Yes. Well, the Earth is turning, too.
    Mr. Rasicot. Yes, sir. But we are taking some important 
steps to determine what has literally changed since we last 
looked at this. One of the things that was never looked at 
previously was the users' input, the folks that actually will 
receive the signal. And that is what the DOT notice in the 
Federal Register asked.
    It is almost from a Kevin Costner thing: If we build it, 
will you come? Because one of the things that I think is 
important to notice is that even if we got the signal in the 
air tomorrow, it really would not change anything because the 
receivers are not there to receive it. And we are working 
through those issues. And that is what we are asking people: Is 
this a critical issue to you?
    Mr. Garamendi. Mr. Schue, are the receivers available?
    Mr. Schue. Yes, sir. The receivers are available today.
    Mr. Rasicot. No, no. I understand that, sir, but----
    Mr. Garamendi. That is not what you said. You said they are 
not available. Are they available or not available?
    Mr. Rasicot. They are available, sir, but most people do 
not have them.
    Mr. Garamendi. Because there is no e-loran signal.
    Mr. Rasicot. They are available in Europe and other places 
where they are used.
    Mr. Garamendi. Oh, what are the other places? Europe? 
Russia? China?
    Mr. Rasicot. I am not sure of all of them.
    Mr. Garamendi. They are available in Europe, Russia, and 
China. Is that correct, Mr. Faga?
    Mr. Faga. Yes. And I think the Japanese are also building 
out.
    Mr. Garamendi. Oh, yes. The Japanese, too. U.S. maritime 
says they want the system. You are aware of that, I suppose?
    Mr. Rasicot. Yes, sir.
    Mr. Garamendi. Why are we getting the runaround here? Mr. 
Rasicot, why are we getting the runaround?
    Mr. Rasicot. I do not have a good answer for that, sir. But 
I will tell you that the administration is pushing forward, and 
we are working through the Space-Based PNT Executive Committee 
to come up with the correct solution, and we hope to move 
forward on that. We look forward to the results.
    Mr. Garamendi. God help us, another committee.
    Mr. Rasicot. Sir, as established under the Federal 
Radionavigation Plan.
    Mr. Garamendi. Can you give me some estimate of when a 
decision would be made by that committee?
    Mr. Rasicot. I will tell you that the next meeting of that 
committee is in September. I cannot speak for the leadership of 
that committee.
    Mr. Garamendi. Who are the leaders of the committee?
    Mr. Rasicot. It is chaired by the Deputy Secretary of 
Defense and the Deputy Secretary of Transportation, as per the 
Federal Radionavigation Plan.
    Mr. Garamendi. Ms. Van Dyke, are they expected to attend 
the meeting?
    Ms. Van Dyke. Yes, they are.
    Mr. Garamendi. What day in September?
    Ms. Van Dyke. September 3rd.
    Mr. Garamendi. I yield back.
    Mr. Hunter. I thank the ranking member. We will get back to 
that, too.
    Mr. Gibbs is recognized, the gentleman from Ohio.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Ms. Van Dyke, in your testimony you mentioned the 
possibility of backups at ports and increased access if the GPS 
technology is disrupted. Have we had any occurrences of 
backups, of our GPS shutting down? Can you give us what the 
situation was, the status? Can you tell me if we have had the 
incidents happen or how critical they were?
    Ms. Van Dyke. Most of the incidents of GPS interference 
that we have had are actually testing the Department of Defense 
conducts. And for aviation, if you are a pilot, you will see a 
Notice to Airmen of areas of airspace where GPS is deemed 
unreliable due to the military testing, which again is why the 
FAA has maintained its ground-based navigation aid 
infrastructure.
    There have been other unintentional incidents. There was 
one in San Diego with a Navy ship that caused interference in 
the Port of San Diego. And then on a lower power level, there 
are GPS jammers that plug into cigarette lighters and cause a 
smaller radius of interference. That certainly has been most 
notably experienced at Newark International Airport.
    Mr. Gibbs. So we need to have a backup complementary 
system.
    Ms. Van Dyke. We do.
    Mr. Gibbs. Mr. Faga, I am just curious. Maybe this is not 
the right question. But we hear so much about spectrum. Is 
spectrum an issue with trying to develop this e-loran system or 
not?
    Mr. Faga. Spectrum is an issue in that there are more and 
more demands to use spectrum. There are interests in providing 
similar services with more spectrum, including spectrum that is 
close to where GPS operates. If some of these proposals are 
actually implemented, we may see effects on GPS service.
    To come back also to the question you asked a moment ago of 
Karen, there are thousands of events per day. But they are 
small. They are mostly these little jammers. There was a famous 
case of Newark Airport having a problem with the effects of a 
jammer. Finally, a person was caught and fined $32,000 for the 
violations. But that was day after day.
    These are people who are trying to hide their own movement, 
perhaps, from their own employer or what have you. They buy 
devices that claim they have a range of only 10 meters, and in 
fact have a range of 2 or 3 miles.
    Mr. Gibbs. So drug interdiction could be----
    Mr. Faga. Criminal activity, smuggling. Right. These are 
when these things get used.
    Mr. Gibbs. So the e-loran system would be harder to 
compromise or not?
    Mr. Faga. I am sorry?
    Mr. Gibbs. The other system, the e-loran system, would it 
be harder----
    Mr. Faga. Oh, it would be much harder to disrupt because 
instead of generating 100 watts from 11,000 miles, it generates 
300,000 watts from 1,000 miles or less.
    Mr. Gibbs. Mr. Rasicot--I hope I said your name right--the 
icebreakers in the polar caps, I am just curious if some 
represent the Great Lakes area. Can you tell me the status of 
icebreakers in the Great Lakes?
    Mr. Rasicot. Yes, sir. We have the 140-foot icebreakers and 
the Mackinaw up there working. And as you know, we have had 
some record ice years up there, and we have an agreement with 
the Canadians where we partner with them to use their heavy 
icebreakers when necessary. And in fact, we used two of them to 
keep the waterways open.
    We experienced minimal delays this year. I think it is 
accurate to say that we are at capacity for normal icebreaking 
years. When you get record years, we do work with the Canadians 
to bring their heavies in, and that works very well.
    Mr. Gibbs. What is the age of our icebreaker ships?
    Mr. Rasicot. The 140-foot icebreakers were built in the 
1980s, and they are currently undergoing a service life 
extension program, the first ones in there. And we have got 
them scheduled over the next few years.
    Mr. Gibbs. Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. I thank the gentleman.
    The gentleman from North Carolina is recognized.
    Mr. Rouzer. Thank you, Mr. Chairman.
    I want to talk a little bit about drilling for oil, and 
particularly as it relates to offshore drilling. I have seen 
press reports that state the Coast Guard's response to a spill 
in Cuban waters would take 14 days. Is that accurate?
    Ms. Landry. Without knowing the--Congressman Rouzer, I am 
not sure what you are referring to in terms of how long it 
would take us to respond. If there were a spill in Cuban 
waters, we would immediately react to whatever threat we might 
have to our exclusive economic zone.
    Mr. Rouzer. Sure. Tell me how that works when there is a 
spill. What transpires, exactly?
    Ms. Landry. For domestic or for foreign?
    Mr. Rouzer. Domestic.
    Ms. Landry. For domestic, we get an immediate notification 
through the National Response Center of a spill, and we launch 
assets from whatever location could be impacted.
    Mr. Rouzer. For example, the Deepwater Horizon spill, walk 
through that. What was the timeline there?
    Ms. Landry. The timeline there was an immediate call in to 
our command center in the Eighth District, where we initiated a 
search and rescue case, anticipated a potential pollution case, 
and also a marine casualty investigation because this was an 
explosion in an offshore rig in our waters. So it was an 
immediate notification and an immediate response to three areas 
of our responsibility, search and rescue, pollution response, 
and marine casualty investigation.
    Mr. Rouzer. Specific to the bill that has been introduced, 
the Foreign Spill Protection Act of 2015, have you all had an 
opportunity to take a look at that or have any preliminary 
thoughts on it?
    Ms. Landry. I know that some of our staff have looked at 
it. Our lawyers and our National Pollution Funds Center folks 
have looked at it. Yes, sir. We would love to give you a 
briefing on the existing structure of our laws. The National 
Pollution Funds Center would love to come and give you great 
detail on how we are structured to respond.
    If we have a spill in Cuban waters, in Arctic waters, from 
another country that could threaten our EEZ [exclusive economic 
zone], we have our fund to respond immediately. It does have 
limitations. It has the caps that we are all aware of. And we 
would have to work with Congress, absolutely, to continue with 
that response.
    Mr. Rouzer. So who is drilling off the coast of Cuba now? I 
have read reports from time to time where foreign entities are 
going through Cuba and using the fracking technology to come 
closer into our oil reserves, what I would consider off the 
coast of the United States. What do we know about that?
    Ms. Landry. I am not aware of current drilling in Cuban 
waters. I am aware a few years ago there was drilling, and we 
were very involved in assisting, at the request of the company 
and the country, through the Department of State, to inspect 
the rig that was going to be drilling. And we work continuously 
in the Caribbean region on preparedness to respond. And we were 
able to do that through our existing treaties and agreements.
    Mr. Rouzer. Talk to me about the Oil Spill Liability Trust 
Fund. I happened to read about that this morning. Give me the 
rundown on that. How much money is in it? How quickly would 
that be depleted? Who is eligible for it? Et cetera.
    Ms. Landry. All right. So there we worked for years with 
the oil pollution fund and OPA 1990. It is a great piece of 
legislation in terms of improving our preparedness to respond 
and our ability to respond, and it really has served us well, 
even in Deepwater Horizon, which was beyond the scale and scope 
of what might have been envisioned for what we would need. But 
it proved to be very valuable.
    We have a Pollution Funds Center set up. We have a fund 
that has approximately over $4 billion right now, but there are 
caps. In an immediate response, we have a $50 million emergency 
fund if there is no responsible party to attach to. So we can 
access that fund. Once the responsible party is determined, we 
can then work with the responsible party to begin paying for 
the response.
    Mr. Rouzer. Thank you. Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman.
    Let's get back on the e-loran thing. You know who Brad 
Parkinson is?
    Mr. Faga. Yes.
    Mr. Hunter. Who is Brad Parkinson?
    Mr. Faga. Often called the father of e-loran.
    Mr. Hunter. The father of GPS.
    Mr. Faga. I am sorry. The GPS.
    Mr. Hunter. GPS. Here is what he said. ``E-loran is the 
only cost-effective backup for national needs. It is completely 
interoperable with and independent of GPS, with different 
propagation and failure mechanisms plus significantly superior 
robustness to radio frequency interference and jamming. It is a 
seamless backup, and its use will deter threats to U.S. 
national and economic security by disrupting GPS reception.''
    Do you know who Brad Parkinson is? So he is going to be at 
this meeting on September 3rd? Do you think you will hear 
anything different than what I just said? Do you think he has 
changed his mind on e-loran?
    Ms. Van Dyke. No. Dr. Parkinson is also heavily involved 
with the Space-Based PNT Advisory Board, serving as one of the 
vice chairs, and certainly has advocated for e-loran, as you 
have mentioned.
    Mr. Hunter. Are there any dissenters? Who is arguing that 
we do not need a backup system to GPS? I am guessing, because 
you are having the meeting, that there has got to be 
opposition, one side versus another side, different papers, 
different studies, different research. So who is on the side 
arguing that we do not need an e-loran system, that GPS is 
fine?
    Ms. Van Dyke. I am not aware of that argument. I think it 
is really assessing which technology is right as a single 
national backup to GPS, and again, going to the user needs in 
terms of user adoption of equipment as a backup to GPS.
    Mr. Hunter. So what alternatives are you guys going to be 
discussing to GPS, then, besides e-loran? What are the other 
alternatives out there?
    Ms. Van Dyke. There certainly are commercial techniques, 
local RF-ranging techniques. There are private companies that 
offer those services.
    Mr. Hunter. You are saying there are alternatives for a 
national positioning system, ground-based, that does not 
involve satellites? And they are what, again?
    Ms. Van Dyke. Yes. One of the challenges is looking at how 
to extend some of these local systems into a national system 
and what the cost tradeoff of doing that is. Also, it is 
looking at, again, what users will adopt. So that was really 
what we wanted to focus on in the Federal Register notice and 
have feedback. Right now, the Federal Aviation Administration 
operates over 1,000 VOR DMEs and 1,200 instrument landing 
systems, so the commercial aviators are equipped to use those 
systems.
    Mr. Hunter. Let me ask you again. If you do not have GPS--
let's say that it goes down--what are the alternatives to GPS?
    Ms. Van Dyke. They really vary in terms of positioning 
techniques and timing techniques.
    Mr. Hunter. So what other system can do everything that GPS 
or e-loran does? Put it that way. If they all vary, which ones 
are as good as GPS and e-loran?
    Ms. Van Dyke. They vary in terms of their performance 
characteristics. There is nothing----
    Mr. Hunter. Ms. Van Dyke, when you say ``they,'' I am just 
trying to get you to tell me exactly what you mean by ``they.''
    Ms. Van Dyke. Nothing is as good as GPS. GPS is a three-
dimensional, highly accurate system. If there were another 
alternative----
    Mr. Hunter. Not underwater. Not inside buildings. Right? 
Does GPS extend underwater?
    Ms. Van Dyke. No.
    Mr. Hunter. No. So what do subs use?
    Ms. Van Dyke. Inertial navigation systems. Sonar [sound 
navigation ranging].
    Mr. Hunter. And it does not go into buildings, either. 
Right? GPS does not?
    Ms. Van Dyke. That is correct.
    Mr. Hunter. So you have GPS. That is one. You have e-loran. 
That is another system. Right? Then what is the next system 
that would be competing against those two?
    Ms. Van Dyke. There are local RF-ranging systems that can 
be deployed and have been deployed. The question is whether 
they make sense for a nationwide backup. There are inertial 
navigation systems that work with accelerometers and gyros that 
need to be calibrated but are very accurate systems.
    For autonomous vehicles, we are looking at the integration 
of inertial with lidar [light detection and ranging], so laser-
ranging cameras, matching technology. There are integrated 
multisensor capabilities. So again, it is looking at what the 
performance requirements are that the users need.
    Mr. Hunter. How many e-loran ground systems already exist?
    Ms. Van Dyke. I will defer to the Coast Guard on that.
    Mr. Rasicot. There are eight remaining towers.
    Mr. Hunter. Eight?
    Mr. Rasicot. Eight remaining towers.
    Mr. Hunter. Eight remaining towers.
    Mr. Rasicot. We have the one that we have a cooperative 
research and development with UrsaNav, which they are working 
out of Wildwood to----
    Mr. Hunter. So it would take 16 to cover everything?
    Mr. Rasicot. Those were his words.
    Mr. Hunter. Or 19?
    Mr. Faga. Nineteen for nationwide coverage, including 
navigation. Four for a minimal system that would provide only 
timing.
    Mr. Hunter. So we have the minimal system now?
    Mr. Faga. No, we do not.
    Mr. Hunter. We do not?
    Mr. Faga. There are no stations operating other than 
Wildwood on a test basis.
    Mr. Hunter. Got you.
    I yield to the ranking member.
    Mr. Garamendi. Thank you, Mr. Chairman. I see the Ice Man 
has arrived here, so we will get to icebreakers in a few 
moments.
    [Laughter.]
    Mr. Garamendi. But Ms. Van Dyke, I hear your testimony, and 
I am going, here we go again. Yes, there are undoubtedly 
alternative systems. But all of them are localized, and then 
coordinating all of those together is going to require some 
sort of overarching system. You know that. I think everybody 
who is interested in this has known this for at least 15 years.
    And you have just very well stated why there is a thing 
called Federal time. Maybe if we study this a little longer, we 
will be able to find some alternative. You talked about 
internal systems. Somebody can develop an internal cesium 
system that you can carry around with you that keeps times. Not 
likely to solve the underlying problem.
    I have had it. Several of us sit on the Armed Services 
Committee also. And I will tell you, this is a very significant 
national security issue that cannot be delayed any longer. 
There is a very good reason why Russia, Europe, and I suppose 
now Japan have decided they need an e-loran system of some 
sort.
    And it is high time for this Nation to put one in place 
because if we don't, GPS is going to go down. And when it goes 
down, there is going to be a significant national security 
issue, to say nothing of a significant economic issue for this 
Nation.
    For $40 million we could set up a national timing system--
not navigation, but at least timing, which is integral, 
absolutely essential, for the continued operation of our 
electrical grid, our financial systems, transportation systems 
including those FAA issues where there are probably several 
dozen companies that would like to sell us a new shake and bake 
opportunity for navigation.
    But without an e-loran system in place ASAP, this country 
is in serious, serious jeopardy. And I am really interested in 
hearing what is going to go on on September 3rd. I am telling 
you now that if you guys don't get your act together, then we 
must pass legislation that designates a specific Federal agency 
to get this done with a specific timeframe.
    Now, listen carefully to what I am saying. I don't intend 
to back off. And so this is a message to the deputies, of which 
I happen to have been one in my past, and I understand full 
good and well the Federal time system. Let us study this but 
again.
    This goes to the Coast Guard also. You have had the 
original responsibility, and frankly, I think you have failed 
in that responsibility. You have gone round and round, and I 
happen to know that there are some folks at OMB who are a major 
problem in this. And I know who they are, and I am going to 
have a discussion with them. And if they happen to be in the 
audience, then maybe we can have that discussion right away. 
You put this Nation at risk.
    Now, do we need a single Federal agency responsible to get 
this done and a timeframe to get it done? Or are we going to 
have multiple agencies who are going to kick the ball back and 
forth? Mr. Rasicot?
    Mr. Rasicot. Sir, I think we await the results of our PNT 
EXCOM. That is the group that is designated to do this work, 
and I think they are moving towards a solution.
    Mr. Garamendi. So we do not need a single Federal agency; 
we need multiple agencies?
    Mr. Rasicot. Sir, I yield to the EXCOM as to how to best 
implement the system.
    Mr. Garamendi. Oh, you are good.
    [Laughter.]
    Mr. Garamendi. I guess that is what you get paid for, 
obfuscation.
    Ms. Van Dyke, do we need a single Federal agency?
    Ms. Van Dyke. We are working closely with the interagency 
on the way forward. And again, as Mr. Rasicot said, we do not 
want to presuppose the outcome of the EXCOM, which is cochaired 
by DOD and DOT. So we already are in a multiagency arrangement 
for GPS.
    Mr. Garamendi. Mr. Faga, how long have you been involved in 
this issue?
    Mr. Faga. I have been involved in GPS since the 1980s.
    Mr. Garamendi. PNT?
    Mr. Faga. PNT.
    Mr. Garamendi. Do we need a single Federal agency 
responsible for getting this done?
    Mr. Faga. We will. And I think what will happen is once 
there is a determination to actually move forward, the 
interagency will decide who has to take the lead role and work 
with all the agencies and actually get it done, deal with the 
industry, work out a financing arrangement, and so on.
    Mr. Garamendi. We have not spent much time on a public-
private partnership. There has been some discussion of the 
commercial application of e-loran, a brief discussion of 
public-private partnerships. And I think we had better ice this 
thing and talk about icebreakers. A public-private partnership.
    Mr. Faga. Right. The idea there is that a private provider 
builds the system but has a federally provided funding 
mechanism available to pay it back. I will give you an example.
    I am on the board of a company called DigitalGlobe, which 
flies commercial imaging satellites. It built these satellites 
at private expense, but it operates half of them on behalf of 
the U.S. Government and gets an annual payment. So all the 
financing, construction, launch, the whole thing, was private, 
and the Government pays back with essentially a user payment. 
Imagine a similar situation here.
    Mr. Garamendi. Thank you. I yield back, Mr. Chairman.
    Mr. Hunter. I yield to the Ice Man.
    [Laughter.]
    Mr. Young. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to submit records for changes to alternative 
planning criteria used in Alaska to meet oil pollution and 
response requirements. There are some things up there that I 
will submit questions for, with your permission.
    I yield back.
    Mr. Hunter. I thank the gentleman.
    Let me get this straight, too. So Transportation and 
Defense are the two agencies working this. Right? It is 
Transportation and Defense, and the Coast Guard is kind of in 
the middle? Is that right? Those are the two agencies?
    Ms. Van Dyke. The Space-Based PNT Executive Committee is 
cochaired by the Deputy Secretaries of Defense and 
Transportation. The complementary PNT program, we are working 
very closely with DHS. So it is a tri-led effort to determine a 
backup to GPS.
    Mr. Hunter. So it is the space-based PNT. But we are not 
talking space-based stuff. Right? We are talking e-loran, which 
is ground-based. Does it matter? Are they all-encompassing?
    Ms. Van Dyke. NSPD-39, which I mentioned in my testimony, 
does discuss a backup to GPS. So that is covered under the 
Space-Based PNT Executive Committee policy.
    Mr. Hunter. OK. I am just trying to think. Is this a 
transportation issue? Obviously it has been going back and 
forth in Department of Transportation forever. So maybe it is 
not a transportation issue. Maybe it is a pure DOD issue. We 
just have them do it, and we tell them what to do, and we just 
get it done. Then you will not have multiple agencies 
discussing things forever, which is what seems like is 
happening right now.
    I do not have any more questions on this. Do you want to 
talk icebreakers? I yield to the gentleman from California.
    Mr. Garamendi. The icebreaker thing has gone round and 
round, and I think a lot of the problem really lies here in 
Congress, where we have been unable to find the money to either 
buy a new icebreaker, build a new one, or repair the present 
one.
    My question, I think, is mostly a Coast Guard here 
question, Mr. Rasicot. A study is underway. Presumably we are 
going to take the Polar Star out of the water, look at it. You 
have described this. Could you go into a little bit more detail 
about the timing, when the study is going to be done and the 
scope of the study, so that we can be prepared to pounce on 
whatever solution the Coast Guard finds?
    Mr. Rasicot. Yes, sir. There are actually two things going 
on. One is the preservation drydock, which will commence before 
the end of this fiscal year, and that is where we will pull the 
Polar Sea out of the water and take care of all the things that 
have been decaying and preserve what has been going on over the 
last 3 or 4 years while she has been out of service.
    The next thing, which will start when we get the money 
from--it is in the fiscal year 2016 President's budget--is what 
we call a material condition analysis or assessment. And we are 
going to go stem to stern on that ship and see what shape she 
is in.
    She has been sitting there for a while. She has been 
inactive. We need to know what systems are workable, what is 
still there. Many of these systems are actually obsolete. I was 
actually just talking to the skipper of the Polar Star this 
week, and believe it or not, they have to buy some of the fuses 
for their main generators and switchboards on eBay because they 
are not manufactured.
    Well, that is the same equipment that is on Polar Sea. So 
we need to take a look. We really cannot make any credible 
decision on reactivation/decommissioning until we get a good 
sense of what is really there and what the condition of that 
is.
    Mr. Garamendi. The ranking member, Mr. DeFazio, raised the 
issue of gut and fill, I guess is what it means, basically 
using the hull. Will that also be studied?
    Mr. Rasicot. Yes, sir. We will take a look at all--what we 
will look at is what is the condition and what is the viability 
of that ship. I have to go back to both the written statement 
and my oral statement, though. We only see the Polar Sea or 
Polar Star as a gap filler between now and the new icebreaker. 
We need to think about recapitalizing the icebreaker fleet as 
opposed to using 40-year-old ships.
    Mr. Garamendi. Have you made any progress on working with 
the other Federal agencies and I suppose private agencies that 
are likely to use the new and the existing heavy icebreaker for 
their research? Any discussions about those agencies 
participating in the payment?
    Mr. Rasicot. Well, we certainly have a multiagency and 
multidisciplinary approach to developing the requirements for 
the icebreaker, as it is a national asset that serves many 
agencies. However, we have not had discussions regarding the 
payment structure or the funding structure between agencies. 
No, sir.
    Mr. Garamendi. The chairman is about to introduce a piece 
of legislation that would set up a fund similar to the 
submarine fund in the Department of Defense where money can be 
collected to construct a new icebreaker, to refurbish one of 
the existing ones, extend the life of them. Does the Coast 
Guard have a position on that legislation?
    Mr. Rasicot. Well, sir, I think it is fair to say that we 
normally do not comment on pending legislation. However, the 
Commandant has said on numerous occasions that he looks forward 
to imaginative and innovative solutions. And we look forward to 
working with the committee staff on those type of solutions for 
this national problem.
    Mr. Garamendi. I think that introduction is pending 
probably this week?
    Mr. Rasicot. Yes, sir.
    Mr. Garamendi. So then you can comment and be very specific 
about it. It also, as I understand the legislation, would allow 
us to find financial help from other agencies that might want 
to have space on either refurbished or a new icebreaker. So I 
draw your attention to that.
    Mr. Rasicot. Yes, sir.
    Mr. Garamendi. And we look forward to hearing back from you 
and any organizations that would be interested in that matter.
    I yield back.
    Mr. Young [presiding]. This is for the Coast Guard, and I 
would suggest to the committee and the ranking member that I 
still think we either have to pass legislation for an 
independent study for leasing a management-private partnership. 
I have argued with every admiral, every Commandant, for the 
last 40 years about this concept of having to own a vessel.
    I was here when we funded the Polar Star and the rest of 
those three vessels. There are a lot of reasons why they are 
not operating. One is a stupid law; we have to replace it with 
the cheapest product when there is something that breaks down. 
That is our fault.
    Secondly, though, is the money. I do not know whether even 
this fund that we are going to introduce will ever get enough 
money to build a Coast Guard icebreaker. I do believe we ought 
to have an independent study and see whether it can be done a 
cheaper way with a better result than we will have trying to 
appropriate the money for going through the Coast Guard.
    Now, what is the estimated cost of--you cannot tell me yet 
when you go through the Polar Star?
    Mr. Rasicot. I am sorry, sir?
    Mr. Young. The estimated cost of refurbishing?
    Mr. Rasicot. No. It is impossible to tell right now, it 
really is, because we have to get a look at the material 
condition.
    Mr. Young. Did we not put money in the Polar Sea? Which one 
did we refurbish?
    Mr. Rasicot. We refurbished the Polar Star.
    Mr. Young. We already did the Polar Star?
    Mr. Rasicot. Well, for a 7- to 10-year life cycle. Yes, 
sir.
    Mr. Young. OK. So what are you looking at this life cycle 
of the Polar Sea?
    Mr. Rasicot. Well, it really depends on how the acquisition 
progresses. And right now we need to just look at the ship 
itself and see what it is capable of. It has been sort of 
deteriorating while Polar Star has been available, and we have 
actually taken some of the stuff off of Polar Sea to make Polar 
Star work.
    So you are paying Peter to pay Paul, or whatever the right 
saying is there. So we just need to get on board, sir, and do 
an engineering analysis. I really cannot provide you an answer.
    Mr. Young. OK. I respect that. But I really suggest, 
respectfully, you are wasting your money. This is like trying 
to fix a brand-new house that is full of termites. It will cost 
a lot of money. You will make a lot of studies, a lot of 
effort. And the end result will be it is going to cost us $100 
million to try to refurbish this ship.
    And I really believe we ought to look. Is there a better 
way of getting icebreakers into our activity, especially when 
everybody else is involved? You see what China is doing. Russia 
has got the best icebreaking fleet now. Finland has always had 
a good one. And I don't want to be leasing from them.
    I still think there ought to be a proposal. I don't see why 
the Coast Guard cannot come out with--what do you call it--a 
projected suggestion on what would a shipyard charge us for a 
35-year lease with a ship built to our specification and 
maintained by the shipowner. That is the beauty of it.
    Because you guys have done--not you personally or any of 
the Coast Guard--done a terrible job, I believe, in maintaining 
the icebreakers that we have. The hulls are not in bad shape. 
It is all the other nonsense--like you said, outdated. They 
have got fuses you have to put in like the old days that have 
got a clip on each end.
    I have been on a couple of these ships, and they were state 
of the art when we built it. But that was 35 years ago, 40 
years ago. Forty years. And so I am just suggesting--if I can, 
I am going to talk to the chairman. We are going to see if we 
cannot get an independent study. And I may be wrong. Maybe you 
are right.
    I will yield to the gentleman.
    Mr. Garamendi. I think you hit upon something interesting. 
If I understand the Coast Guard, you have been studying the 
requirements for a new ship. Is that correct?
    Mr. Rasicot. We have had an interagency integrated planning 
team studying those requirements, yes.
    Mr. Garamendi. What is the status of the planning?
    Mr. Rasicot. We hope to finish it this year. As you recall, 
we did a preliminary operational requirements document, which 
we completed. You then refine that, get the stakeholders back 
in, and see if anything has changed. Did we get it right? And 
we are trying to get this right. This is a 40- or 50-year-old 
asset. We do not buy these every year. So we are trying to get 
it right. So we are looking to get this done by the end of the 
year, sir. Calendar year.
    Mr. Garamendi. My friend the Ice Man here. With that in 
hand, there would be information that a private company could 
then look at and come up with some answer to your question.
    Mr. Young. And that is what I expect. What is your 
requirement? Put it out there. You have got quite a few 
shipyards now because the Navy is cutting back. The shipyards 
are available. We have a lot of private shipyards that are 
interested in this operation. They can look at this and give us 
an estimated cost of what would happen.
    Now, part of this is our fault because my understanding 
is--which agencies, once the lump is all lump sum? OMB. They 
want to say, OK, because it takes--let's say the ship costs 
$800 million versus $1.4 billion. They want to charge us $800 
million, charge us against the budget, and I am saying that is 
nonsense.
    We have to change that where it is the amount of money you 
expend to lease the vessel in that year. And that would solve 
some problem. That would solve a problem. This is all 
bureaucratic--it is a stupid way to do things. But the main 
thing is I have watched this done before where if an owner of 
the vessel leases to a recipient with covenants from the 
recipient, and part of the contract is maintaining the vehicle, 
it is up to them to maintain it, so either you want to re-lease 
it or, in fact, it would be valuable as an asset at the end of 
the lease.
    That is all I have ever asked for the last 25 years is to 
try to look at--the last study I know of that was done by the 
Coast Guard is 1980. That was 35 years ago. And maybe it didn't 
pencil out then. So that is all I am asking, is that you 
consider it. And every Commandant has argued with me over this 
and they say, do not do it.
    Do you have another question?
    Mr. Garamendi. Yes. Just to follow up on your point, later 
this year there will be detailed information about what a new 
icebreaker will need to be. I suppose it will be not only the 
physical nature of it but also the kinds of scientific space 
that would be needed in it and so forth, so it would go into 
some detail.
    Perhaps it could be made available to the private industry 
to come up with a bid that might then be a lease. I suspect 
that it will take a couple of lines in some appropriation, or 
maybe in a Coast Guard reauthorization bill, that would require 
that that information be available to the private companies for 
the purposes of achieving your goal. You might want to look at 
that.
    Mr. Young. Yes. Mr. Chairman, I was just talking about the 
lease option, and apparently there is a study taking place, 
what is going to be required. And I think we ought to get an 
estimate because I do not want the Coast Guard to do the study 
itself. With all due respect, that gets kind of self-serving.
    I would either like to have an outside agency do it or give 
us the details of the requirement for what they seek and see 
whether we can get a vessel or a suggestion. Because again, it 
is maintenance. There is nothing wrong with those three ships 
we built other than they just wore out and the parts were not 
replaced correctly.
    And it was not your fault. We have a ``buy American'' 
clause. And we do not put modern stuff in. We place it with, 
very frankly, and that is one of the reasons--I do not think 
the hulls are hurt. The hulls have not been used that much, and 
hulls do not really wear out unless you run into a rock like we 
did up north. We didn't know where that was.
    That is something we have to do, Mr. Chairman. I don't know 
whether it is in our jurisdiction because this surveillance--
or, excuse me, mapping of our sea bottoms in the Arctic is 
crucially important. We have no concept of what is out there, 
especially offshore. We still do not know where they ran into 
it. But anyway, it has nothing to do with drilling. It is lack 
of navigational aids. I think the last area was done in 1905, 
so we are really outdated.
    Mr. Chairman, I do not have any other questions. Would you 
like to ask some more questions?
    Mr. Hunter. Yes. It seems like we are falling behind. You 
have all these other countries that we talk about here in 
disparaging ways sometimes--Europe, Russia, China--doing all 
the stuff that we are not doing right now, whether it is backup 
to GPS, whether it is building icebreakers. I would like to 
just get your general sense of what are we doing wrong?
    Number two, when it comes to the icebreakers, I do not 
think we should presuppose that it should even be a Coast Guard 
icebreaker. It might be DOD-owned. It could be some kind of 
interagency. It could be a leased vessel that is run by 
merchant mariners where the Coast Guard is not even involved in 
it, where the ice gets broken. Because obviously, none of this 
stuff is getting done.
    I guess we are going to have meetings on it. September 3rd 
there is going to be a meeting on GPS backup stuff. There are 
going to be more meetings on icebreakers going forward, with no 
actual plan to implement anything. So we are falling behind. I 
am just curious. Why are we falling behind these other 
countries on these issues? Go ahead, go down the line. I am 
just curious. Please, speculate.
    Mr. Rasicot. Sir, I do not have a good reason as to why the 
perception might be we are falling----
    Mr. Hunter. Let's not mince words. It is not a perception. 
We do not have any heavy icebreakers and they do. So I would 
call that purely we do not have icebreakers and they do.
    Mr. Rasicot. Yes, sir. And we do have an active program of 
record to recapitalize one heavy icebreaker. We are moving 
forward on that. We will have the operational requirements----
    Mr. Hunter. So my question is, why do you think we are 
falling behind? Even if we get one, we are still behind. Peer 
competitor nations, we are behind, even if we have one. So my 
question is, why are we falling behind? What do you think?
    Mr. Rasicot. I do not have a good reason for that, sir. I 
just do not know.
    Mr. Hunter. Admiral?
    Ms. Landry. Competing national priorities. That is what I 
would say.
    Mr. Young. If the chairman will yield for a moment?
    Mr. Hunter. Absolutely.
    Mr. Young. One of the things that I have been concerned 
over the years, we in the Congress--I was partly guilty of 
this--but OPA. Never had that responsibility before. Oil spill 
responsibility was given to you by the Congress, so we never 
really funded it adequately.
    When I first came to this body, you had navigational aids, 
search and rescue. Think of all the responsibilities that you 
have now. And we really do not fund the Coast Guard adequately. 
I am convinced that that is our biggest challenge. I cannot 
blame an agency as much as I do the Congress in not recognizing 
the importance of the mission and the importance of, very 
frankly, being an Arctic nation. And I am very prejudiced that 
way because I am the Arctic nation.
    [Laughter.]
    Mr. Garamendi. You are the Ice Man.
    Mr. Young. Sometimes they do not think I am an Ice Man. 
They think I am a volcano. But I really think we have a 
responsibility. Because you talk about defense, and I am all 
for defense. Do not get me wrong. We talk about all these other 
things. And yet we say, here, Coast Guard, you have got this 
job to do but, by the way, we are not going to give you 
anything to eat, so keep running a mile. That is pretty hard to 
do.
    So I think we ought to be talking that way to some of our 
Members of Congress, and this is a very serious issue 
securitywise, I think internationally. We have got probably 74 
ships going through the Bering Straits this year, which you did 
not have before. It goes back oil spill liability. I know we 
had the oil spill liability bill here, and I worked on OPA when 
it passed.
    I still do not know how we are going to make other 
countries--China is going to be drilling up there. They do not 
give a rat's tail. See, I was good. I kept my language 
straight. And we have to have the shipping channels in place, 
the GPSs in place, the lorans in place, everything expecting 
for the next 100 years because that is where the action is 
going to be.
    You have got 31 of the known minerals we use today above 
the Arctic Circle. They were never accessible before. You have 
oil beyond anyone's imagination at the North Pole. And people 
look at me like I am crazy. I am not kidding about that. You 
talk to my geologists, at some time the North Pole did not have 
any ice. We did not have any climate change. It was a different 
time of the globe.
    And so we had better be prepared, and I think it is our 
responsibility to try to make that happen. So I am not blaming 
the Coast Guard for all this. I do not like all the agencies 
working against one another. Now, that concerns me a great 
deal.
    Mr. Chairman, I have a little case where this 
administration came out with the flood plain. This came out of 
the White House, the flood plain. They have got three 
alternatives--a 100-year status, a 1,000-year status, and then 
they have one that is going to be the future-thinking flood 
plain. And all the agencies have adopted a different policy.
    How do I get a permit? Do you have an answer to that? 
Anybody have an answer to that? That is what we have when we 
have agencies. One does this, one does that, and one does this. 
You know what? We do not go anywhere. It is like a dog team. I 
was an old dog musher. If we had all the dogs going in one 
direction, I got home. But if I had one dog going one way, 
another dog going the other way, and another dog going the 
other way, I killed them all because we did not go anywhere. So 
we figured out what we do. And I am not suggesting I do that to 
anybody in this room.
    [Laughter.]
    Mr. Young. I am just saying we have got to get on the same 
page. We have got to go forward and not getting all this, it is 
my deal, it is my deal. That does not serve anybody. Mr. 
Chairman, I do not have any questions.
    Mr. Hunter. This is way more fun when you are going.
    [Laughter.]
    Mr. Hunter. Mr. Garamendi, any more questions?
    Mr. Garamendi. I could have a lot of fun, but I think Mr. 
Young's statement stands for itself. And we heard it earlier, 
and now the icebreaker issue. And also, Ms. Landry, you spoke 
the truth. It is a matter of priorities. It is a question of 
priorities. And we have to make those choices, and we often 
fail to do so. Mr. Young was speaking about it. I will let it 
go. Thank you.
    Mr. Hunter. I thank the gentleman from California. I just 
want to note, too, congratulations, Ms. Landry, on filling the 
Coast Guard USAA [United Services Automobile Association] board 
of directors coming up. Way to go. I use USAA sometimes. I 
think it is just homeowners or something, but anyway, 
congratulations.
    I yield back to the chairman.
    Mr. Young. I believe this meeting is adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
